                                    SOCIAL SECURITY
MEMORANDUM

Date:   May 19, 2006                                                  Refer To:

To:     Laurie Watkins
        Regional Commissioner
         Philadelphia

From:   Inspector General

Subject: Administrative Costs Claimed by the Virginia Disability Determination Services
        (A-13-05-15134)


        The attached final report presents the results of our audit. Our objectives were to
        (1) evaluate the Virginia Disability Determination Services’ internal controls over the
        accounting and reporting of administrative costs, (2) determine whether costs claimed
        were allowable and properly allocated and funds were properly drawn, and (3) assess
        limited areas of the general security controls environment.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.




                                                            S
                                                           Patrick P. O’Carroll, Jr.

        Attachment

        cc:
        James A. Rothrock, Commissioner, Department of Rehabilitative Services
        Robert A. Watts Jr., Director, Virginia Disability Determination Services
        Ruby Burrell, Acting Associate Commissioner, for Office of Disability Determination
         Services
        Jeff Hild, Associate Commissioner for Office of Financial Policy and Operations
        Candace Skurnik, Director, Audit Management and Liaison Staff
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



   ADMINISTRATIVE COSTS CLAIMED
     BY THE VIRGINIA DISABILITY
      DETERMINATION SERVICES

    May 2006     A-13-05-15134




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                Executive Summary
OBJECTIVE
Our objectives were to (1) evaluate the Virginia Disability Determination Services’
(VA-DDS) internal controls over the accounting and reporting of administrative costs,
(2) determine whether costs claimed for Federal Fiscal Years (FY) 2002 through 2004
were allowable and properly allocated and funds were properly drawn, and (3) assess
limited areas of the general security controls environment.

BACKGROUND
Disability Determination Services (DDS) in each State or other responsible jurisdiction
perform disability determinations under both the Disability Insurance and Supplemental
Security Income programs. Such determinations must be performed in accordance with
Federal regulations. In meeting its obligation, each DDS is responsible for determining
claimants' disabilities and ensuring adequate evidence is available to support its
determinations. The Social Security Administration (SSA) reimburses the DDS for
100 percent of allowable program expenditures up to the limit of its funding authority.
SSA provided VA-DDS about $93 million for FYs 2002 through 2004.

RESULTS OF REVIEW
Generally, VA-DDS had effective internal controls over the accounting and reporting of
administrative costs. Most costs claimed during our audit period were allowable and
properly allocated and funds were properly drawn. In addition, we found VA-DDS’
general security controls environment was generally effective. However, VA-DDS
claimed $230,310 in duplicate reimbursement for separated employees’ unused leave;
claimed $58,531 in FYs 2002 through 2004 for costs that lacked support; reported
$733,732 of unsupported obligations for FYs 2003 and 2004; and failed to comply with
certain requirements of SSA’s Disability Determination Services Security Document.
We also found the Agency’s policy on DDS’ use of medical consultants with inactive
licenses may need clarification (see Other Matter).

RECOMMENDATIONS
We recommended that SSA instruct VA-DDS to refund $230,310 for duplicate
reimbursement it claimed for separating employees’ unused leave; require that VA-DDS
provide documentation for unsupported costs or reduce VA-DDS’ funding authorization
by $58,531; withdraw VA-DDS funding authorization of $733,732 FYs 2003 and 2004
for unsupported obligations; and comply with SSA’s policies related to intrusion
detection systems and office cleaning.

SSA AND STATE AGENCY COMMENTS
SSA agreed with our recommendations. In its response to our recommendations,
VA-DDS agreed to implement or had already implemented our recommendations.


Administrative Costs Claimed by the Virginia DDS (A-13-05-15134)
                                                                    Table of Contents
                                                                                                             Page

INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................3

Duplicate Reimbursements for Separated Employees’ Unused Leave ...................3

Accounting Records Did Not Support the Forms SSA-4513 ...................................4

Unliquidated Obligations Were Unsupported ..........................................................5

General Security Controls Can Be Improved ..........................................................6

    •    VA-DDS Intrusion Detection Controls Did Not Meet Requirements..............6

    •    VA-DDS Did Not Comply with Policies for Cleaning Services ......................6

    •    Disaster Recovery Could Not Be Tested ......................................................7

CONCLUSION AND RECOMMENDATIONS .........................................................8

OTHER MATTER..................................................................................................10


APPENDICES

APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Virginia Disability Determination Services’ Schedule of Costs Reported,
             Questioned, and Allowed

APPENDIX D – Agency Comments

APPENDIX E – State Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments




Administrative Costs Claimed by the Virginia DDS (A-13-05-15134)
                                                                          Introduction
OBJECTIVE

The objectives of our audit were to (1) evaluate the Virginia Disability Determination
Services’ (VA-DDS) internal controls over the accounting and reporting of administrative
costs, (2) determine whether costs claimed for Federal Fiscal Years (FY) 2002 through
2004 were allowable and properly allocated and funds were properly drawn, and
(3) assess limited areas of the general security controls environment.

BACKGROUND
Disability Determination Services (DDS) in each State or other responsible jurisdiction
perform disability determinations under both the Disability Insurance and Supplemental
Security Income programs. Such determinations are required to be performed in
accordance with Federal law and underlying regulations.1 In carrying out its obligation,
each DDS is responsible for determining claimants' disabilities and ensuring adequate
evidence is available to support its determinations.

The Social Security Administration (SSA) reimburses the DDS for 100 percent of
allowable and allocable program expenditures up to the limit of its funding authority.
The DDS draws Federal funds through the U.S. Department of the Treasury's
Automated Standard Application for Payments system in accordance with Federal
regulations2 and an intergovernmental agreement entered into by Treasury and the
State of Virginia under the Cash Management Improvement Act of 1990.3

VA-DDS is a component of Virginia’s Department of Rehabilitative Services (VA-DRS).
VA-DRS provides VA-DDS such administrative services as accounting for obligations,
making purchases, and preparing requests to transfer cash from Treasury to the State
Treasurer. VA-DDS uses indirect cost rates approved for VA-DRS. Indirect costs for
VA-DRS are determined based on rates negotiated and approved by the
U.S. Department of Education.




1
    20 Code of Federal Regulations (C.F.R.) §§ 404.1601 et seq. and 416.1001 et seq.
2
    31 C.F.R. 205.1 et seq.
3
    Public Law 101-453.



Administrative Costs Claimed by the Virginia DDS (A-13-05-15134)                           1
The State Agency Report of Obligations for SSA Disability Programs (Form SSA-4513)
reports obligations for personnel service, medical, indirect, and all other nonpersonnel
costs. For these costs, VA-DDS reported program disbursements and unliquidated
obligations4 on Forms SSA-4513, as shown in Table 1. VA-DDS completes and
submits the Form SSA-4513 to SSA.

      Table 1: VA-DDS Reported Disbursements and Unliquidated Obligations
                             FYs 2002 Through 2004

          REPORTING               FY 2002             FY 2003                 FY 2004
             ITEM              As of 06/25/04      As of 12/31/04           As of 12/31/04
         Disbursements
           Personnel            $14,710,102          $15,696,152                 $17,745,836
           Medical               $7,285,170           $7,463,429                  $7,329,974
           Indirect Costs        $3,178,430           $3,073,137                  $3,255,678
           Other                 $4,594,909           $3,938,825                  $3,732,869
         Total                  $29,768,611          $30,171,543                 $32,064,357
         Disbursements
         Unliquidated                       $0           $400,940                   $727,178
         Obligations
         Total Obligations      $29,768,611          $30,572,483                 $32,791,535


VA-DDS is comprised of an administrative office and four regional offices. The
administrative office is located in Richmond, Virginia. The four regional offices are in
Richmond, Fairfax, Roanoke, and Virginia Beach, Virginia. See Appendix B for our
Scope and Methodology.




4
  DI 39506.200, B. 4. “Unliquidated obligations represent obligations for which payment has not yet been
made. Unpaid obligations are considered unliquidated whether or not the goods or services have been
received.”



Administrative Costs Claimed by the Virginia DDS (A-13-05-15134)                                           2
                                                        Results of Review
Generally, VA-DDS had effective internal controls over the accounting and reporting of
administrative costs. Most costs claimed during our audit period were allowable and
properly allocated and funds were properly drawn. In addition, we found VA-DDS’
general security controls environment was generally effective. However, VA-DDS
claimed duplicate reimbursement for separated employees’ unused leave, lacked
support in VA-DRS’ accounting records for total net costs claimed for FYs 2002 through
2004, and reported unsupported obligations (see Appendix C). VA-DDS also failed to
comply with certain requirements of SSA’s Disability Determination Services Security
Document5 related to intrusion detection controls and office cleaning. We also
determined VA-DDS could not test its disaster recovery plan because SSA officials did
not provide the connectivity for testing the systems. SSA officials indicated the testing
requirements were not practical.

DUPLICATE REIMBURSEMENT FOR SEPARATED EMPLOYEES’
UNUSED LEAVE
During FYs 2002 through 2004, VA-DDS received duplicate reimbursement of $230,310
for separated employees’ unused leave. Separated employees are those individuals
who end their employment with VA-DDS. Separated employees were paid for leave
they had not used at the end of their employment. VA-DDS received duplicate
reimbursement for 118 payments it made for 87 separated employees for unused leave.

The Department of Education approved VA-DRS’ Indirect Cost Rate Agreements
covering FYs 2002 through 2004. These Agreements provided the methodology for
distributing indirect costs that benefited SSA’s disability programs and other programs
VA-DRS administers. The Agreements directed all payments for separating employees’
unused leave to be treated as indirect costs. These Agreements also state “Acceptance
of the rate(s) agreed to herein is predicated on the conditions…that the same costs that
have been treated as indirect costs are not claimed as direct costs.…”6

VA-DDS accounted for the payments for unused leave as direct costs when the
payments were also included in the FYs 2002 through 2004 indirect cost computations
and reimbursements. As a result, SSA reimbursed VA-DDS twice for the same
expenses, which is not allowable. We believe VA-DDS should refund SSA $230,310 for
the duplicate reimbursement.


5
  After our general security controls environment assessment, SSA’s Disability Determinations Services
Security Document was superseded by POMS section DI 39566 – DDS Privacy and Security. POMS
section DI 39566 incorporated the Disability Determinations Services Security Document requirements as
they relate to the general security control findings in this report.
6
 Statements are included in VA-DRS’ Indirect Cost Rate Agreements dated January 18, 2001;
September 12, 2002; August 19, 2003; and August 26, 2004.


Administrative Costs Claimed by the Virginia DDS (A-13-05-15134)                                     3
ACCOUNTING RECORDS DID NOT SUPPORT THE FORMS SSA-4513
VA-DRS’ accounting records did not support the total net costs VA-DDS claimed on the
Forms SSA-4513 for FYs 2002 through 2004.7 VA-DRS’ accounting records supported
$58,531 less than the net amount claimed and reported by VA-DDS for the 3-year
period.

20 C.F.R. § 416.1025(a) states, “The State will establish and maintain the records and
furnish the schedules, financial, cost, and other reports relating to the administration of
the disability program as we [SSA] may require.” Also, 20 C.F.R. § 416.1026 (e) states,
“After the close of a period for which funds have been made available to the State, the
State will submit a report of its expenditures…we [SSA] will determine whether the
expenditures were consistent with cost principles….” Based on VA-DRS’ accounting
records, the FYs 2002 through 2004 Forms SSA-4513 did not have records to
substantiate the costs claimed. This will make it difficult for SSA to determine whether
expenditures were consistent with cost principles.

We compared the Forms SSA-4513 for FYs 2002 through 2004 to VA-DRS’ accounting
records and identified claimed costs reported on the Forms SSA-4513 that were not
supported by VA-DRS’ accounting records. We discussed the results of our
comparison with VA-DDS staff. Subsequently, VA-DDS staff decreased the total net
amount we identified as not supported by VA-DRS’ accounting records. While VA-DDS
staff was able to resolve many of the inconsistencies, $58,531 in claimed costs
remained unsupported. Table 2 identifies the unsupported total net amount.


          Table 2: COMPARISON OF VA-DRS’ ACCOUNTING RECORDS TO
                              FORMS SSA-4513

          Form SSA-4513
     FY Total Disbursements Accounting Record Totals Unsupported Costs
    2002    $29,768,611           $29,713,826             $54,785
    2003    $30,171,543           $30,172,744            ($1,201)
    2004    $32,064,357           $32,059,410             $4,947
     Net    $92,004,511           $91,945,980             $58,531

On December 1, 2005, we discussed the net unsupported costs with representatives
from SSA’s Philadelphia Regional Office and VA-DDS. The VA-DDS official stated
there was no other documentation to support these costs. The official explained it was
not possible to completely reconcile the accounting records to the Forms SSA-4513.




7
 The total net costs claimed were as of June 25, 2004 for FY 2002, and December 31, 2004, for
FYs 2003 and 2004.


Administrative Costs Claimed by the Virginia DDS (A-13-05-15134)                                4
UNLIQUIDATED OBLIGATIONS WERE UNSUPPORTED
On its FYs 2003 and 2004 Forms SSA-4513, VA-DDS reported unliquidated,
unsupported obligations totaling $733,732.8 SSA’s Program Operations Manual System
(POMS) states “Obligations for supplies, equipment, and other contractual
services…should be supported by a valid purchase order or other binding agreement to
pay for goods or services.”9 For an obligation to be valid, POMS requires that a bona
fide need exist within the FY the funds were available for creating an obligation.10 A
purchase order or other binding agreement can be issued up to 6 months after the end
of the FY.11 During our audit, we found no purchase orders or other binding
agreements had been issued for two unliquidated obligations. Therefore, these
obligations were not supported.

VA-DDS officials explained the unsupported obligations pertained to the planned
purchase of a generator and construction of office cubicles in FYs 2003 and 2004,
respectively. As of October 31, 2005, VA-DDS had not issued valid purchase orders or
other binding agreements for these items. Table 3 summarizes the unsupported
obligations we identified.

                           Table 3: UNSUPPORTED OBLIGATIONS
                                  FYS 2002 THROUGH 2004
                  Form SSA-4513
                  Cost Category FY 2002 FY 2003 FY 2004         Total
                     All Other
                   Non-Personnel      $0    $225,000 $508,732 $733,732

On October 31, 2005, we discussed the unsupported obligations with VA-DRS and
VA-DDS officials. VA-DDS officials indicated the two unliquidated obligations were
valid. The officials explained they still needed the generator and office cubicles.
Officials further stated they believed VA-DDS had up to 5 years after the end of the FY
to obligate funds. This 5-year period exceeds the 6-month allowable period indicated in
POMS for incurring obligations.12

After our October 2005 discussion, VA-DDS took action to address the unsupported
obligations. Of $733,732, VA-DDS deobligated13 FY 2003 funds of $225,000 for the

8
  The amount of unliquidated obligations was claimed on the FYs 2003 and FY 2004 Forms SSA-4513 for
the fiscal quarter ended December 31, 2004.
9
    POMS, DI 39506.201, E.4.
10
     POMS, DI 39506.200, B.1.
11
     Id.
12
     POMS, DI 39506.200, B.3.
13
     The term “deobligated” denotes canceling the cost commitment to purchase goods and/or services.


Administrative Costs Claimed by the Virginia DDS (A-13-05-15134)                                       5
purchase of a generator. After our January 17, 2006 discussion, VA-DDS reported it
had deobligated the FY 2004 funds of $508,732 for constructing office cubicles. SSA
should withdraw the funding authorizations for these unsupported obligations.

GENERAL SECURITY CONTROLS CAN BE IMPROVED
We assessed limited areas of VA-DDS’ general security controls environment. Based
on our limited assessment, we determined VA-DDS’ general security controls
environment was generally effective. However, we identified two areas where VA-DDS
could improve its general controls. Specifically, the intrusion detection controls did not
meet requirements, and policies concerning cleaning services provided during nonwork
hours were not followed. We also determined VA-DDS could not test its disaster
recovery plan because SSA officials did not provide the connectivity for testing the
systems. SSA officials indicated the testing requirements were not practical.

                              VA-DDS’ intrusion detection controls did not meet
VA-DDS Intrusion
                              requirements. We found the intrusion detection systems
Detection Controls Did
                              and compensating controls at VA-DDS’ regional and
Not Meet Requirements
                              administrative offices did not comply with SSA’s policies.
                              We discussed this issue with VA-DDS management. The
VA-DDS officials did not agree with our conclusions regarding intrusion detection
controls. However, officials from SSA’s Philadelphia Regional Office stated the
rationale for the VA-DDS officials’ disagreement was not adequate.

                             VA-DDS did not comply with SSA policies for cleaning
VA-DDS Did Not Comply services. We found contractor employees provided
with Policies for            cleaning services at the Richmond Regional and
Cleaning Services            administrative offices during nonwork hours. SSA’s
                             Disability Determination Services Security Document states
“The office should be cleaned during work hours if at all possible. If daytime cleaning is
not possible, extra care should be taken to ensure sensitive and Privacy Act related
documents (e.g. medical reports and folders) are kept secure overnight.”14 VA-DDS’
contract for cleaning services allowed contractor employees to perform services during
nonwork hours when VA-DDS employees were not present.

We discussed this issue with VA-DDS officials who acknowledged all VA-DDS regional
offices had cleaning services performed during nonwork hours. Officials explained this
was done to prevent cleaning staff from interrupting VA-DDS employees during work
hours. Further, we were informed VA-DDS did not practice the clean desk policy, as
required by the Disability Determination Services Security Document. Although officials
indicated contractor employees were bonded, we do not believe this was an adequate
management control. We believe VA-DDS should comply with SSA policy for cleaning
services.


14
     Id. at p.38.


Administrative Costs Claimed by the Virginia DDS (A-13-05-15134)                             6
Disaster Recovery Plan    VA-DDS could not annually test its Disaster Recovery Plan,
Could Not Be Tested       which addresses those events involved in restoring system
                          operations following a disaster. VA-DDS’ Plan included
system and manual claims processing recoveries. SSA’s Disability Determination
Services Security Document provided guidance for the annual testing of DDS’ Disaster
Recovery Plan. On October 7, 2005, a VA-DDS official acknowledged the Disaster
Recovery Plan had not been tested.

On January 17, 2006, SSA officials indicated the testing requirements were not
practical. Officials explained the VA-DDS system recovery portion of the Disaster
Recovery Plan was not tested because SSA had not provided needed connectivity
between VA-DDS and SSA computer systems. On January 17, 2006 Agency officials
indicated the VA-DDS was not expected to perform the system recovery portion of the
disaster recovery testing. As a result, officials explained this testing requirement has
been modified. Further, the SSA officials stated the testing requirement for the manual
claims processing recovery has been eliminated.




Administrative Costs Claimed by the Virginia DDS (A-13-05-15134)                           7
                                                     Conclusion and
                                                   Recommendations
While funds charged for the program were generally allowable and allocable, we found
SSA reimbursed VA-DDS for duplicate costs of $230,310 for separated employees’
unused leave. During our audit, we found accounting records did not support the net
costs of $58,531 claimed by VA-DDS for FYs 2002 through 2004. We also found
VA-DDS reported unsupported obligations of $733,732. After our discussion with
VA-DDS officials, actions were taken to decrease the net unsupported cost claimed and
to remove these obligations. Finally, our audit indicated the VA-DDS needs to comply
with SSA’s general security control policies related to intrusion detection and office
cleaning.

We recommend SSA:

1. Instruct VA-DDS to refund $230,310 for duplicate reimbursement it claimed for
   separating employees’ unused leave.

2. Reduce VA-DDS funding authorization of $58,531 for net unsupported cost.

3. Withdraw VA-DDS funding authorization of $225,000 and $508,732 for FYs 2003
   and 2004, respectively, for the unsupported obligations.

4. Instruct VA-DDS to comply with SSA’s policies related to intrusion detection systems
   or obtain a waiver from SSA.

5. Instruct VA-DDS to comply with SSA’s policies related to cleaning services.

AGENCY COMMENTS
SSA agreed with our recommendations. In response to recommendation 1, SSA will
instruct VA-DDS to refund $230,310. To address recommendations 2 and 3, VA-DDS
submitted amended Forms SSA-4513s to remove the obligations. Regarding
recommendation 4, SSA will instruct VA-DDS to purchase intrusion detection systems
for its Fairfax and Richmond offices. In addition, SSA will instruct the General Services
Administration to include intrusion detection systems in its relocation plans for the
Virginia Beach and Roanoke offices. Concerning recommendation 5, SSA will instruct
VA-DDS to comply with policies related to cleaning services when the leases are
renewed. See Appendix D for the full text of the Agency’s comments.




Administrative Costs Claimed by the Virginia DDS (A-13-05-15134)                            8
STATE AGENCY COMMENTS
In its response to our recommendations, VA-DDS agreed to implement or had already
implemented our recommendations. Regarding recommendation 1, VA-DDS concurred
with the finding that $230,310 in leave payouts was included in the direct cost pool used
as a basis for calculating the negotiated indirect cost rate for Federal Fiscal Years 2002
through 2004. To address recommendation 2, VA-DDS submitted revised SSA-4513
quarterly fiscal reports to reflect the $54,785 reduction for FY 2002, $1,201 in additional
costs for FY 2003, and a $4,947 reduction for FY 2004. Additionally, authorization for
the obligation was revised to reflect the reported changes. In its response to
recommendation 3, VA-DDS deobligated FY 2003 funds of $225,000 and FY 2004
funds of $508,732. However, VA-DDS stated that the funds for constructing office
cubicles are valid obligations, and that it has documentation confirming the need and
the intent to purchase. Regarding recommendations 4 and 5, VA-DDS will provide
specifications for intrusion detection systems and daytime cleaning services to the lease
administrator for inclusion in the lease renewal negotiations. See Appendix E for the full
text of VA-DDS’s comments.

OIG RESPONSE
SSA and VA-DDS agreed with our recommendations and provided a technical comment
regarding recommendation 1 that we incorporated into the final report. Concerning
recommendation 3, if VA-DDS needs to construct office cubicles, then it should comply
with SSA’s policies and procedures for creating an obligation.




Administrative Costs Claimed by the Virginia DDS (A-13-05-15134)                          9
                                                                          Other Matter
AGENCY POLICY ABOUT MEDICAL CONSULTANTS’ LICENSES MAY
NEED CLARIFICATION

During our audit of VA-DDS’ FYs 2002 through 2004 administrative costs, we found the
DDS used medical consultants who held inactive medical licenses. For the bi-weekly
pay period ended May 15, 2004, VA-DDS paid $3,461 to three physicians serving as
medical consultants who had inactive licenses.15

Medical consultants provide medical expertise and guidance to disability examiners
concerning case adjudication, medical opinions, and medical evidence and testing.
According to SSA policy, a medical consultant must be a licensed physician,
optometrist, or podiatrist or a qualified speech-language pathologist.16

VA-DDS’ medical consultant contracts stated the “Contractor must be a physician in
good standing with the State Board of Medicine and licensed to practice medicine in the
Commonwealth of Virginia.” Accordingly, the Virginia Board of Medicine defines an
active license as a licensee who may practice medicine, osteopathy, or podiatry in
Virginia.17 Our interpretation of SSA’s existing guidelines agrees with VA-DDS’ medical
consultant contract’s requirement for an active license.

Although we concluded the use of the three medical consultants did not comply with
contract requirements, VA-DDS officials indicated the use of the consultants with
inactive licenses did not violate SSA policy. The officials opined that SSA’s policy is
vague as to what type of licensure was allowed. Specifically, the policy does not state
whether the physician should be licensed to practice medicine (active license) or may
not engage in the practice of medicine (inactive license).18 In October 2005, VA-DDS
officials informed us two of the three medical consultants we identified had obtained
active licenses. VA-DDS reported the remaining medical consultant no longer
performed services as a consultant.

We believe SSA’s policy regarding the licensing of medical consultants may need
clarification. Although SSA policy does not explicitly differentiate between active and
inactive licensure, Agency officials stated it is their intent and belief that medical
consultants used by SSA have active professional licenses.
15
  Virginia’s regulations governing the practice of Medicine, Osteopathy, Podiatry and Chiropractic, states
“The holder of an inactive license shall not be required to maintain continuing competency requirements
and shall not be entitled to perform any act requiring a license to practice medicine, osteopathic medicine,
podiatry or chiropractic in Virginia.” 18 Virginia Administrative Code (VAC) 85-20-236.
16
     POMS, DI 24501.001, C.2.
17
     http://www.vahealthprovider.com/help.asp; see also 18 VAC 85-20-230 et seq.
18
     POMS, DI 39569.004, D.2.


Administrative Costs Claimed by the Virginia DDS (A-13-05-15134)                                         10
                                            Appendices




Administrative Costs Claimed by the Virginia DDS (A-13-05-15134)
                                                                        Appendix A

Acronyms
 CFR                   Code of Federal Regulations

 DDS                   Disability Determination Services

 Form SSA-4513         State Agency Report of Obligations for SSA Disability
                       Programs
 FY                    Fiscal Year

 POMS                  Program Operations Manual System

 SSA                   Social Security Administration

 VA-DDS                Virginia Disability Determination Services

 VA-DRS                Virginia Department of Rehabilitative Services




Administrative Costs Claimed by the Virginia DDS (A-13-05-15134)
                                                                               Appendix B

Scope and Methodology
We reviewed the administrative costs reported to the Social Security Administration
(SSA) by the Virginia Disability Determination Services (VA-DDS) on the State Agency
Report of Obligations for SSA Disability Programs (Form SSA-4513) for Federal Fiscal
Years (FY) 2002 through 2004.

The program obligations reported by VA-DDS on the Forms SSA-4513 were as follows.

            Table 1: VA-DDS Disbursements and Unliquidated Obligations
                              FYs 2002 Through 2004

          REPORTING ITEM                  FY 2002            FY 2003             FY 2004
                                        as of 06/25/04     as of 12/31/04      as of 12/31/04

       Disbursements:
          Personnel                     $14,710,102          $15,696,152       $17,745,836
          Medical                        $7,285,170           $7,463,429        $7,329,974
          Indirect Costs                 $3,178,430           $3,073,137        $3,255,678
          All Other Non-                 $4,594,909           $3,938,825        $3,732,869
          Personnel
       Total Disbursements              $29,768,611          $30,171,543       $32,064,357

       Unliquidated
       Obligations:
          Personnel                                $0                  $0           $2,934
          Medical                                  $0                  $0         $157,263
          Indirect Costs                           $0                  $0           $(293)
          All Other Non-                           $0            $400,940         $566,980
          Personnel
         Total Unliquidated                        $0            $400,940        $727,1781
          Obligations
       Total Obligations                $29,768,611          $30,572,483       $32,791,535




1
 Unliquidated obligations reported by VA-DDS on the FY 2004 Form SSA-4513 did not total to $727,178.
The difference between the value reported and actual total unliquidated obligations is insignificant.
Therefore, in Table 1 we report the value VA-DDS indicated on the Form SSA-4513.


Administrative Costs Claimed by the Virginia DDS (A-13-05-15134)                                  B-1
To achieve our objectives, we:

•   Reviewed applicable Federal law and regulations, pertinent parts of SSA’s Program
    Operations Manual System and other criteria relevant to administrative costs
    claimed by VA-DDS and drawdowns of SSA program funds.

•   Reviewed State policies and procedures relating to personnel, medical, indirect, and
    all other nonpersonnel costs.

•   Interviewed staff and officials from SSA, U.S. Department of Education, VA-DDS,
    and Virginia Department of Rehabilitative Services.

•   Evaluated and tested internal controls regarding accounting, financial reporting and
    cash management activities.

•   Reviewed the administrative costs VA-DDS reported on its Forms SSA-4513 for
    FYs 2002 ($29,768,611), 2003 ($30,572,483), and 2004 ($32,791,535).

•   Reconciled the Virginia Department of Rehabilitative Services’ accounting records to
    the administrative costs reported by VA-DDS on the Forms SSA-4513 for FYs 2002
    through 2004.

•   Reconciled the amount of Federal funds drawn for support of program operations to
    the allowable expenditures.

•   Reviewed the State of Virginia Statewide Single Audit reports for years ending
    June 30, 2002 through 2004.

•   Examined the administrative costs incurred and claimed by VA-DDS for personnel,
    medical services, and all other nonpersonnel costs during FYs 2002 through 2004.

•   Selected samples of payroll, medical evidence and all other nonpersonnel costs as
    described in the sampling methodology section on the following page.

•   Analyzed indirect costs by applying the payroll cost base to agreed negotiated rates.

•   Conducted a limited examination of VA-DDS’ general security control environment at
    its administrative and regional offices located in Richmond, Virginia.

We concluded the electronic data used in our audit were sufficiently reliable, given the
audit objectives and intended use of the data, and should not lead to incorrect or
unintentional conclusions. We assessed the reliability of the electronic data by
reconciling it with the costs claimed on the Form SSA-4513. We also conducted
detailed audit testing on selected data elements from the electronic files.




Administrative Costs Claimed by the Virginia DDS (A-13-05-15134)                       B-2
We performed work at the VA-DDS and Virginia Department of Rehabilitative Services
in Richmond, Virginia, and the Office of Audit in Baltimore, Maryland. We conducted
fieldwork from August through November 2005. The audit was conducted in
accordance with generally accepted government auditing standards.

SAMPLING METHODOLOGY

Our sampling methodology included the three general areas of costs as reported on
Form SSA-4513: (1) personnel, (2) medical, and (3) all other nonpersonnel costs. We
obtained data extracts from VA-DDS for FYs 2002 through 2004 to use in statistical
sampling. Indirect cost was not sampled but we reviewed the indirect cost calculations
for FYs 2002 through 2004 to ensure the correct rate was applied. After selecting and
reviewing the randomly selected samples, we did not identify errors that we felt
warranted statistical projection.

Personnel Costs

We randomly selected 1 pay period in FY 2004 and reviewed 50 employees’
transactions. We tested payroll records to ensure VA-DDS accurately paid its
employees and adequately supported these payments.

For medical consultant costs, we randomly selected one pay period in FY 2004. We
selected all medical consultants during the period and verified that the medical
consultants were paid in accordance with the approved contract.

Medical Costs

We stratified medical costs into medical evidence of record and consultative
examinations and selected a stratified random sample of 150 items (50 items from each
stratum in FYs 2002, 2003, and 2004).

All Other Nonpersonnel Costs

We selected a stratified random sample of 150 items (50 items from each FY) from the
All Other Non-personnel Costs category. We stratified the transactions into the
appropriate categories: (1) Occupancy, (2) Contracted Costs, (3) Electronic Data
Processing Maintenance, (4) New Electronic Data Processing Equipment,
(5) Equipment Purchases, (6) Equipment Rental, (7) Communications, (8) Applicant
Travel, (9) VA-DDS Travel, (10) Supplies, (11) Miscellaneous, and (12) Codes Not
Identified. We then distributed the 50 sample items for each year between categories
based on the proportional distribution of the costs.




Administrative Costs Claimed by the Virginia DDS (A-13-05-15134)                    B-3
                                                                   Appendix C

Virginia Disability Determination Services’
Schedule of Costs Reported, Questioned and
Allowed
Our audit work resulted in the identification of three areas of questioned costs. We
identified duplicate reimbursements for separated employees’ unused leave totaling
$230,310. This total comprises $62,763, $76,577 and $90,970 for Fiscal Years (FY)
2002, 2003, and 2004, respectively. Also, we found claimed expenses the accounting
records did not support in the amounts of $54,785, ($1,201) and $4,947 for FYs 2002,
2003 and 2004, respectively. Finally, we identified unsupported obligations totaling
about $225,000 and $508,732 for FYs 2003 and 2004, respectively. VA DDS officials
canceled the FY 2003 unsupported obligation of $225,000 after we brought it to their
attention.

                            FISCAL YEAR (FY) 2002 COSTS
Description                Costs Reported   Cost Questioned         Costs Allowed
Personnel                      $14,710,102                $0            $14,710,102
Medical                         $7,285,170                $0              $7,285,170
Indirect Costs                  $3,178,430                $0              $3,178,430
All Other                       $4,594,909           $62,763              $4,532,146
Unsupported Amount                      $0           $54,785               ($54,785)
Total                          $29,768,611          $117,548            $29,651,063

                                    FY 2003 COSTS
Description                Costs Reported    Cost Questioned        Costs Allowed
Personnel                      $15,696,152                  $0          $15,696,152
Medical                         $7,463,429                  $0            $7,463,429
Indirect Costs                  $3,073,137                  $0            $3,073,137
All Other                       $3,938,825           $301,577             $3,637,248
Unsupported Amount                      $0            ($1,201)                $1,201
Total                          $30,171,543           $300,376           $29,871,167

                                    FY 2004 COSTS
Description                Costs Reported    Cost Questioned        Costs Allowed
Personnel                      $17,745,836                  $0          $17,745,836
Medical                         $7,329,974                  $0            $7,329,974
Indirect Costs                  $3,255,678                  $0            $3,255,678
All Other                       $3,732,869           $599,702             $3,133,167
Unsupported Amount                      $0              $4,947               ($4,947)
Total                          $32,064,357           $604,649           $31,459,708



Administrative Costs Claimed by the Virginia DDS (A-13-05-15134)
                                                                   Appendix D

Agency Comments




Administrative Costs Claimed by the Virginia DDS (A-13-05-15134)
Administrative Costs Claimed by the Virginia DDS (A-13-05-15134)   D-1
Administrative Costs Claimed by the Virginia DDS (A-13-05-15134)   D-2
                                                                   Appendix E

State Agency Comments




Administrative Costs Claimed by the Virginia DDS (A-13-05-15134)
Administrative Costs Claimed by the Virginia DDS (A-13-05-15134)   E-1
Administrative Costs Claimed by the Virginia DDS (A-13-05-15134)   E-2
Administrative Costs Claimed by the Virginia DDS (A-13-05-15134)   E-3
                                                                      Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Shirley E. Todd, Director, General Management Audit Division (410) 966-9365

   Lance Chilcoat, Audit Manager, General Management (410) 965-9743

   Brian Karpe, Audit Manager, Financial Audit Division (410) 966-1029


Acknowledgments
In addition to those named above:

   Tracey Edwards, Senior Auditor

   Kim Beauchamp, Writer/Editor


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-13-05-15134.




Administrative Costs Claimed by the Virginia DDS (A-13-05-15134)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
